December 4, 1998



Mr. Peter D. Spencer

Assistant Regional Commissioner

 for Management and Operations Support

Social Security Administration, Region IX

P.O. Box 4203

Richmond, California 94804


Dear Mr. Spencer:


The attached final report presents the results of our review, “Audit of
Administrative Costs at the California Disability Determination Services”
(A-09-97-51006). The objective of our review was to determine the propriety of
the administrative costs claimed by the California State Department of Social
Services for its disability determination services for the 2-year period ended
September 30, 1996.

You may wish to comment on any further action taken or contemplated on our

recommendations. If you choose to offer comments, please provide them within the next

60 days. If you wish to discuss the final report, please call me or have your staff contact

Daniel R. Devlin, Deputy Assistant Inspector General for Audit, at

(410) 965-9702.




                                        Pamela J. Gardiner
                                        Assistant Inspector General
                                         for Audit

Enclosure

cc:

Ken Nibali

Acting Associate Commissioner for Disability


Helen Hepner

Director

Management Analysis and Audit Program Support Staff


Eloise Anderson

Director

California Department of Social Services

           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION



   AUDIT OF ADMINISTRATIVE
         COSTS AT THE
    CALIFORNIA DISABILITY
   DETERMINATION SERVICES

  December 1998   A-09-97-51006




AUDIT REPORT

                  EXECUTIVE SUMMARY


OBJECTIVE

The objective of this audit was to determine the propriety of the administrative costs
claimed by the California State Department of Social Services (DSS) for its disability
determination services for the 2-year period ended September 30, 1996.

BACKGROUND

The Social Security Administration (SSA) is responsible for implementation of the
Disability Insurance (DI) program under title II of the Social Security Act (Act). The
DI program was established in 1954 to provide benefits to wage earners and their families
in the event the wage earner becomes disabled. SSA is also responsible for
implementation of the Supplemental Security Income (SSI) program under title XVI of the
Act. The SSI program was established in 1972 to provide income to financially needy
individuals who are aged, blind, or disabled.

Disability determinations under the DI and SSI programs are performed by an agency in
each State in accordance with Federal regulations. In carrying out its obligation, each
State agency is responsible for determining claimants’ disabilities and ensuring that
adequate evidence is available to support its determinations. Each State agency is
authorized to purchase medical examinations, x-rays, and laboratory tests on a consultative
basis to supplement evidence obtained from claimants’ physicians or other treating
sources.

SSA reimburses the State agency for 100 percent of allowable expenditures up to its
approved funding authorization. Each State agency is authorized to withdraw Federal
funds through the U.S. Department of Health and Human Services’ (HHS) Payment
Management System to meet immediate program expenditures. At the end of each
quarter of the Federal fiscal year (FY), each State agency submits to SSA a “State Agency
Report of Obligations for SSA Disability Programs” (Form SSA-4513).

The objectives of our audit were to determine whether:

�	 the expenditures and obligations for the period of October 1, 1994 through
   September 30, 1996, were properly authorized, approved, and disbursed;

�   the unliquidated obligations were accurately recorded;




                                             i
�	 the Federal funds drawn down were consistent with the total expenditures for FYs 1995
   and 1996; and
�	 the internal controls over the accounting and reporting of administrative costs were
   adequate.

Our methodology included a review of the applicable laws, regulations, policies and

procedures, and interviews with SSA and DSS officials as necessary. We performed an

examination of administrative costs (i.e., personnel, medical, indirect, and other costs)

incurred and claimed by DSS on behalf of the California Disability Determination Services

(CADDS) for the period of October 1, 1994, through September 30, 1996. In addition, we

reconciled the accounting records to the administrative costs reported on the quarterly

Form SSA-4513. To fully develop some of the findings noted during our review, we

expanded our audit scope to include the period of July 1994 through

April 1998, as appropriate.


Audit work was performed at DSS headquarters in Sacramento, California;

CADDS’ branch office in Sacramento, California; California State Auditor’s Office in

Sacramento, California; SSA regional office in San Francisco, California; and Office

of Audit field office in Richmond, California. Field work was conducted from

August 1997 to May 1998.


RESULTS OF REVIEW

Our review of the accounting records and administrative costs claimed by DSS disclosed
that disbursements and unliquidated obligations were overstated. This occurred, in part,
due to: (1) incorrect time charges for allocating indirect costs, (2) ineffective methods for
estimating unliquidated obligations, and (3) inadequate controls for reimbursing medical
costs. As a result, DSS overreported its total obligations to SSA by $9,138,726 for the
period under audit (see Appendix B for a summary of monetary results). In addition, we
estimate that SSA will realize about $7.2 million in savings over the next 5 years as a result
of resolving these findings. Specifically, we found:

�	 DSS CLAIMED UNALLOWABLE INDIRECT COSTS OF $3,580,673 FOR JULY 1994
   THROUGH APRIL 1998 FOR ACTIVITIES THAT WERE INCORRECTLY CHARGED
   TO THE DEPARTMENTAL INDIRECT COST POOL

�	 DSS CLAIMED INELIGIBLE PERSONNEL AND OTHER COSTS OF $208,455 FOR
   ACTIVITIES THAT DID NOT BENEFIT SSA’s PROGRAMS FOR OCTOBER 1996
   THROUGH APRIL 1998

�	 DSS CLAIMED EXCESSIVE MEDICAL COSTS OF $192,001 FOR DOCTORS WHO
   WERE PAID TWICE TO REVIEW MEDICAL RECORDS AND VENDORS WHO
   RECEIVED DUPLICATE PAYMENTS FOR MEDICAL SERVICES DURING FYs 1995
   AND 1996



                                              ii
�	 DSS OVERSTATED THE AMOUNT OF UNLIQUIDATED OBLIGATIONS NEEDED
   FOR FYs 1995 AND 1996 BY $5,157,597

�	 DSS NEEDS TO IMPROVE ACCESS CONTROLS OVER THE MODERNIZED
   INTERIM DISABILITY ADJUDICATION SYSTEM (MIDAS) TO PREVENT MISUSE
   THROUGH UNAUTHORIZED TRANSACTIONS

CONCLUSIONS AND RECOMMENDATIONS

We concluded that DSS had overstated its disbursements by $3,981,129 for the period of
July 1994 through April 1998. We also concluded that DSS had overstated its unliquidated
obligations by $5,157,597 for FYs 1995 and 1996. As a result, SSA overreimbursed DSS
for its administrative costs under the DI and SSI programs. We recommend that SSA
require DSS to:

•	 Refund $3,321,401 for indirect costs that did not benefit SSA programs but were
   charged to the departmental indirect cost pool by the Administration Division,
   Information Systems Division, and Director’s Office.

•	 Refund $212,719 for indirect costs related to the Office of Community Relations; refund
   $33,084 for direct costs of program divisions that were incorrectly charged as indirect
   costs; and refund $13,469 for indirect costs related to the Public Inquiry and Response
   Unit.

•	 Determine the propriety of indirect costs charged to the departmental indirect cost pool
   by other DSS components and refund any unallowable costs to SSA. Also, direct the
   Personal Computer (PC) Support Unit, Welfare Program Reform, and Information
   Technology Projects Bureau to properly charge costs to the benefiting programs.

•	 Provide training to all DSS personnel in time reporting policies and procedures; review
   the departmental indirect cost pool for inappropriate charges on a periodic basis; and
   implement proper time reporting procedures so that costs are equitably distributed to
   the benefiting programs.

•	 Refund $196,413 for ineligible building lease costs for the Information Technology
   Projects Bureau. Also, refund $12,042 for ineligible personnel and other costs related
   to the Disability and Adult Programs Division.

•	 Refund $132,520 for doctors who were paid twice to review medical records and clarify
   procedures for the reimbursement of doctors’ fees related to the review of medical
   records.

•	 Refund $59,481 for vendors who received duplicate payments for medical
   services; withhold payments for medical services to vendors until the branch offices
   certify that exception reports have been reviewed and any discrepancies were


                                             iii
   resolved; and contact medical providers prior to ordering medical records for claimants
   to confirm receipt of SSA’s request and avoid a separate request for the same
   information.

•	 Deobligate $867,490 in unsupported obligations that were outstanding as of
   December 31, 1997. Also, improve the methods used to record unliquidated
   obligations so that the recorded obligations more accurately reflect the amounts
   needed and ensure that the unliquidated obligations are reviewed on a monthly basis
   after the end of the FY.

AGENCY COMMENTS AND THE OFFICE OF THE INSPECTOR
GENERAL (OIG) RESPONSE

DSS generally concurred with our findings, but stated that it was unable to confirm the
accuracy of reported total overcharges without completing a review of the documentation
supporting those amounts. The findings and recommendations as presented consider the
comments provided by DSS. SSA found the draft report to be valid and reasonable and
supported the recommendations.

We believe our recommendations are valid and should be implemented. We are available
to discuss the rationale and methodology used to quantify the overcharges identified in our
findings with DSS employees as needed. For a detailed discussion of the comments from
DSS, see pages 17-20 of this report. The full text of DSS’ comments is shown in Appendix
F.




                                            iv
                             TABLE OF CONTENTS


                                                                                                                              Page

EXECUTIVE SUMMARY....................................................................................................i


INTRODUCTION.................................................................................................................1


RESULTS OF REVIEW.....................................................................................................5


     INDIRECT COSTS .........................................................................................................5


     �    Background...............................................................................................................6

     �    Administration Division, Information Systems Division, and

          Director’s Office .......................................................................................................7

     �    Office of Community Relations ...............................................................................8

     �    Program Divisions ...................................................................................................9

     �    Public Inquiry and Response Unit...........................................................................9

     �    Other Support Components ....................................................................................9


     PERSONNEL AND OTHER COSTS ........................................................................10


     �    Information Technology Projects Bureau.............................................................10

     �    Disability and Adult Programs Division...............................................................11

     �    Other Support Components ..................................................................................11


     MEDICAL COSTS .......................................................................................................12

     � Doctors Were Paid Twice to Review Medical Records ....................................12

     � Vendors Received Duplicate Payments for Medical Services .........................13


     UNLIQUIDATED OBLIGATIONS................................................................................14


     �    Medical Costs.........................................................................................................15

     �    Indirect Costs..........................................................................................................15

     �    Personnel and Other Costs...................................................................................16

     �    Summary.................................................................................................................16


CONCLUSIONS AND RECOMMENDATIONS...........................................................17


OTHER MATTERS...........................................................................................................22

APPENDICES

  APPENDIX A - Acronyms

  APPENDIX B - Summary of Monetary Results

  APPENDIX C - The California State Department of Social Services Reported vs.
                Allowed Obligations for Fiscal Year 1995

  APPENDIX D - The California State Department of Social Services Reported vs.
                Allowed Obligations for Fiscal Year 1996

  APPENDIX E - Sampling Methodology for Duplicate Payments

  APPENDIX F - State of California Comments

  APPENDIX G - Major Report Contributors

  APPENDIX H - SSA Organizational Chart
                           INTRODUCTION


OBJECTIVE

The objective of this audit was to determine the propriety of the administrative costs
claimed by DSS for its disability determination services for the 2-year period ended
September 30, 1996.

BACKGROUND

The DI program was established in 1954 under title II of the Act. The DI program is
designed to provide benefits to wage earners and their families in the event the wage
earner becomes disabled. In 1972, Congress enacted the SSI program under title XVI of
the Act. The SSI program is designed to provide income to financially needy individuals
who are aged, blind, or disabled.

SSA is primarily responsible for implementing policies governing the development of
disability claims under the DI and SSI programs. Disability determinations under both DI
and SSI are performed by an agency in each State in accordance with Federal regulations.
In carrying out its obligation, each State agency is responsible for determining claimants’
disabilities and ensuring that adequate evidence is available to support its determinations.
To assist in making proper disability determinations, each State agency is authorized to
purchase medical examinations, x-rays, and laboratory tests on a consultative basis to
supplement evidence obtained from claimants’ physicians or other treating sources. SSA
reimburses the State agency for 100 percent of allowable expenditures up to its approved
funding authorization.

Each State agency is authorized to withdraw Federal funds through HHS’ Payment
Management System to meet immediate program expenditures. Effective
July 1, 1994, the funds are to be drawn in accordance with a cooperative agreement
between the Department of the Treasury and the State agency under the Cash
Management Improvement Act (CMIA). At the end of each quarter of the Federal FY, each
State agency is required to submit to SSA a “State Agency Report of Obligations for SSA
Disability Programs” (Form SSA-4513) to account for program disbursements and
unliquidated obligations. An advance or reimbursement for costs under the program is
subject to the requirements set forth in the Office of Management and Budget’s (OMB)
Circular A-87, “Cost Principles for State and Local Governments.”

CADDS is a component within DSS, the parent agency. For FYs 1995 and
1996, CADDS had approximately 1,600 employees and an authorized budget of
$300.4 million for administrative costs. As of December 31, 1997, DSS reported total


                                              1
claimed costs of $294.6 million, unliquidated obligations of $1.3 million, and deobligated
funds of $4.5 million for the 2-year period. DSS’ Fiscal Systems and Accounting Branch
performs the primary accounting functions for CADDS. Allocation of indirect costs is
performed in accordance with DSS’ cost allocation plan approved by HHS.

In the prior audit of DSS’ administrative costs for FYs 1992 and 1993, HHS’ Office of
Inspector General (OIG) reported that DSS had: (1) overcharged SSA for unallowable
indirect and lease costs, (2) claimed unliquidated obligations that were unsupported or
invalid, and (3) made accounting classification errors in the Personal Leave Program and
equipment costs. HHS/OIG recommended, among other things, that DSS improve its
accountability over the allocation of indirect costs and unliquidated obligations to ensure
that the claimed costs were eligible for Federal reimbursement.1

SCOPE AND METHODOLOGY

We reviewed the administrative costs reported by DSS on its quarterly

Form SSA-4513 for the FYs ended September 30, 1995 and 1996. However, one of our

findings affected the costs claimed for the last quarter of FY 1994. In addition, six of our

findings affected some of the costs claimed in FYs 1997 and 1998. Therefore, we

expanded the audit period to fully develop these findings. For the periods reviewed, we

selected a random sample of medical costs (see Appendix E) and a judgmental sample of

personnel, indirect, and other costs based, in part, on the prior audit results, activities of

DSS organizational components, magnitude of dollar payments, and interviews with DSS

officials.


The purpose of our audit was to determine if DSS had complied with the applicable laws,

regulations, and policies and procedures for its disability determination services.

Accordingly, we evaluated whether: (1) the expenditures and obligations for the period of

October 1, 1994, through September 30, 1996, were properly authorized, approved, and

disbursed; (2) the unliquidated obligations were accurately recorded; (3) the Federal funds

drawn down were consistent with the total expenditures for

FYs 1995 and 1996; and (4) the internal controls over the accounting and reporting

of administrative costs were adequate.


To accomplish our objectives, we performed the following procedures:


•	 Reviewed OMB Circular A-87; Code of Federal Regulations (CFR); SSA’s Program
   Operations Manual System (POMS); DSS’ Time Reporting Handbook; DSS’ Cost
   Allocation Plan for Direct and Indirect Costs; and the CMIA agreement for the State of
   California.


    1
     “State of California Department of Social Services Disability Evaluation Division Administrative
Cost Audit of Disability Determination Services Provided to the Social Security Administration for
Fiscal Years 1992 and 1993” (A-09-94-00046), dated December 21, 1994.


                                                      2
•	 Conducted interviews with California State Auditor’s Office, SSA regional office, and
   DSS headquarters and branch officials.

•	 Reviewed audit reports and working papers from prior audits conducted by the
   California State Auditor’s Office and HHS/OIG, including the corrective actions taken in
   response to the findings and recommendations.

•	 Analyzed computer printouts generated from the MIDAS and California State
   Accounting and Reporting System.

•	 Reconciled the amount of Federal funds drawn for support of program operations to the
   allowable expenditures.

•	 Performed an examination of the administrative costs (e.g., personnel, medical,
   indirect, and other costs) incurred and claimed by DSS for the period of
   October 1, 1994 through September 30, 1996.

•	 Reconciled the accounting records to the costs reported by DSS on its quarterly Form
   SSA-4513 for the period of October 1, 1994, through September 30, 1996.

We obtained sufficient evidence and conducted such tests, as necessary, to assess DSS’
compliance with applicable laws and regulations relating to the draw down of funds
pursuant to HHS’ Payment Management System regulations, and its accounting for
disbursements and unliquidated obligations pursuant to the CMIA agreement,
OMB Circular A-87, and SSA’s POMS. Except as noted in this report, the results of our
tests indicated that, with respect to the items tested, DSS complied in all material respects
with Federal cost principles and regulations. For those items not tested, nothing came to
our attention to indicate that the untested items were not in compliance with applicable
laws and regulations.

We reviewed the internal controls applicable to the recording and reporting of funds
authorized, disbursed, and obligated. We also reviewed internal controls over the draw
down of Federal funds and the computer system used to process disability claims. We
found the internal controls were adequate except for the weaknesses noted in the “Other
Matters” section of this report and included in a separate management letter. For those
items not tested, we reviewed internal controls to obtain an understanding of the control
structure to the extent necessary to perform our audit. In this regard, we relied on the work
of the California State Auditor’s Office, which reported on the adequacy of the internal
controls.




                                              3
Audit work was performed at DSS headquarters in Sacramento, California;
CADDS’ branch office in Sacramento, California; California State Auditor’s Office in
Sacramento, California; SSA regional office in San Francisco, California; and Office of
Audit field office in Richmond, California. Field work was conducted from August 1997 to
May 1998. Our audit was performed in accordance with generally accepted government
auditing standards.




                                            4
                    RESULTS OF REVIEW


Our review of the accounting records and administrative costs claimed by DSS disclosed

that disbursements and unliquidated obligations were overstated. We found that DSS had

overstated its disbursements by $3,981,129 for the period of

July 1994 through April 1998. We also found that DSS had overstated its unliquidated

obligations by $5,157,597 for FYs 1995 and 1996. This occurred, in part, due to:

(1) incorrect time charges for allocating indirect costs, (2) ineffective methods for

estimating unliquidated obligations, and (3) inadequate controls for reimbursing medical

costs. As a result, DSS overreported its total obligations to SSA by $9,138,726 for

the period under audit (see Appendix B for a summary of monetary results). Specifically,

we found:


•	 DSS claimed unallowable indirect costs of $3,580,673 for July 1994 through
   April 1998 for activities that were incorrectly charged to the departmental indirect cost
   pool.

•	 DSS claimed ineligible personnel and other costs of $208,455 for activities that did not
   benefit SSA’s programs for October 1996 through April 1998.

•	 DSS claimed excessive medical costs of $192,001 for doctors who were paid twice to
   review medical records and vendors who received duplicate payments for medical
   services during FYs 1995 and 1996.

•	 DSS overstated the amount of unliquidated obligations needed for FYs 1995 and 1996
   by $5,157,597.

•	 DSS needs to improve access controls over MIDAS to prevent misuse through
   unauthorized transactions.

We estimate that SSA will realize about $7.2 million in savings over the next 5 years as a
result of resolving these findings. The total costs claimed for FYs 1995 and
1996, recommended audit adjustments, and allowable costs for disbursements and
unliquidated obligations are presented in Appendices C and D of this report.

INDIRECT COSTS

For the period of July 1994 through April 1998, we found that DSS claimed unallowable
indirect costs totaling $3,580,673 for activities that were incorrectly charged to the
departmental indirect cost pool. Details follow.




                                              5
Background

DSS is comprised of the Director’s Office and various program and support divisions. The
disability determination services is one of the components of the Disability and Adult
Programs Division. Within DSS, the activities of some employees and components
benefit specific programs while the activities of other employees and components benefit
the department as a whole. The following chart provides an overview of the organizational
structure of DSS.

 Organizational Chart for Department of Social Services
                                                                                 Office of Community Relations
                                                    Director
                                                                                 Local Government

                                                                                 Public Awareness and Outreach
                                                  Chief Deputy
                                                                                 Welfare Program Reform

                                                                                 Legislation

                                                                                 Strategic Planning

                                                                                 Human Rights

                                                                                 Special Assistant to the Directorate




  Administration   Administrative   Children        Community      Disability   Information    Legal         Office     Welfare
  Division         Adjudication     and Family      Care           and Adult    Systems        Division      Of Child   Programs
                   Division         Services        Licensing      Programs     Division                     Support    Division
                                    Division        Division       Division                                  Division



                                                 Social Security Administration’s DDS Operations


DSS procedures require components to charge costs directly to the benefiting programs
whenever possible.2 Indirect cost pools are used when activities benefit multiple program
areas or the entire department. The departmental indirect cost pool is designed to
accumulate the costs of activities that benefit all programs within DSS and allocate such
costs in a reasonable and equitable manner. In general, indirect costs are allocated from
the departmental indirect cost pool to all programs administered by DSS in relation to the
total salaries charged to each program.3 Salary costs are charged to programs based on
time reporting by employees within each organizational component.




   2
       DSS’ Time Reporting Handbook, dated June 7, 1988.

   3
       DSS’ Cost Allocation Plan for Direct and Indirect Costs, State FYs 1995 through 1997.


                                                                  6
Administration Division, Information Systems Division, and Director’s Office

DSS incorrectly charged the costs of activities that did not benefit SSA programs to the
departmental indirect cost pool. These costs were charged to the departmental indirect
cost pool by components within the Administration Division, Information Systems Division,
and Director’s Office. This occurred because DSS personnel: (1) were not fully aware of
proper time reporting procedures and use of the departmental indirect cost pool, and
(2) had not received training since DSS’ Time Reporting Handbook was issued in June
1988. As a result, SSA reimbursed DSS for $3,321,401 in unallowable costs for October
1994 through April 1998. The following table summarizes the indirect costs that did not
benefit SSA programs but were allocated to CADDS.


             Unallowable Costs Charged to SSA Programs
               Through Departmental Indirect Cost Pool
              DSS Component                  Unallowable Costs       Period Claimed

  Administration Division
    Financial Planning Branch                       $54,422          10/94   -   2/98
    Estimates Bureau                               $454,470          10/94   -   9/97
    Information Services Bureau                    $798,722          10/94   -   9/97
    County Cost Analysis Bureau                    $277,695          10/94   -   2/98
    Management and Staff Services Branch            $13,878          10/94   -   3/98
    Client and Management Services Bureau          $151,110          10/94   -   6/97
    Contracts Section                              $208,960          10/94   -   1/98
    Language Services Bureau                       $355,608          10/94   -   11/97
    Regulations Bureau                             $364,524          10/94   -   3/98

  Information Systems Division
     PC Support Unit                               $527,322          10/94 - 4/98

  Director’s Office
    Welfare Program Reform                         $114,690          10/96 - 4/98

                   TOTAL                         $3,321,401



With the exception of the Contracts Section, these components generally performed
activities that benefited all programs administered by DSS other than the SSA programs.
The Contracts Section performed some activities for the entire department, but the time of
four employees was incorrectly charged to the departmental indirect cost pool. We found
that the majority of the inaccurate time charges related to the activities of managers and
supervisors as a whole or employees who participated in meetings, training, or other
activities that could not be identified to a specific benefiting program.




                                            7
For example, the Information Services Bureau charged 100 percent of the time of its
managers and supervisors to the departmental indirect cost pool. However, the
employees that worked for these managers did not charge any time to the departmental
indirect cost pool. Instead, the employees charged the benefiting programs, primarily
welfare-related programs. Therefore, the managers’ time should have been charged to the
same programs as their subordinates instead of the departmental indirect cost pool. DSS’
Time Reporting Handbook states that managers and supervisors shall review all time
reports for accuracy and substantiate the rationale used to determine the benefiting
program for cost allocation purposes.2

As a result of our review, DSS initiated a number of corrective actions to correct these
deficiencies. For the components in the Administration Division, DSS officials provided
documentation to support adjustments to the accounting records to reverse the incorrect
charges for the period of July 1997 through April 1998. In addition, these components no
longer charge unallowable costs to SSA programs through the departmental indirect cost
pool. DSS officials also informed us that the Fiscal Systems and Accounting Branch is in
the process of updating the Time Reporting Handbook.

We recommend that DSS: (1) refund $3,321,401 for indirect costs that were charged to
the departmental indirect cost pool but did not benefit SSA programs, (2) direct the PC
Support Unit and Welfare Program Reform to properly charge costs to the benefiting
programs rather than to the departmental indirect cost pool, (3) determine the propriety of
indirect costs charged to the departmental indirect cost pool by other DSS components
and refund any unallowable costs to SSA, and (4) provide training to all DSS personnel
in time reporting policies and procedures.

Office of Community Relations

The Office of Community Relations is responsible for community liaison and outreach

services. DSS charged 100 percent of the costs for the Office of Community Relations to

the departmental indirect cost pool during the period of July 1996 through

March 1998. Based on our review, we determined that the activities of the Office of

Community Relations primarily benefited non-SSA programs. Nevertheless, through the

departmental indirect cost pool, SSA was improperly charged for a portion of these costs.


As a result, SSA reimbursed DSS for $212,719 in unallowable costs for July 1996 through

March 1998. We believe the Office of Community Relations should perform time reporting

to more equitably distribute its costs to the benefiting programs. DSS officials agreed and

directed the Office of Community Relations to perform time reporting effective April 1998.

We recommend that DSS: (1) refund $212,719 for indirect costs related to the Office of

Community Relations, and (2) review the departmental indirect cost pool for inappropriate

charges on a periodic basis.





                                             8
Program Divisions

For the period of July 1994 through June 1997, program divisions charged direct costs
totaling $142,827 to the departmental indirect cost pool. The program divisions consisted
of the Welfare Programs Division, Community Care Licensing Division, Children and
Family Services Division, and Disability and Adult Programs Division. Program divisions
may not charge direct costs to the departmental indirect cost pool.3 These costs should
have been charged directly to the benefiting programs. This condition was also reported in
the prior audit for FYs 1992 and 1993.1

Based on the approved cost allocation plan, SSA reimbursed DSS for $54,514 of direct
costs from the program divisions that were included in the departmental indirect cost pool.
However, we determined that $21,430 of these indirect costs were allowable as direct
costs to SSA programs. Therefore, the net overcharge to SSA was $33,084 in
unallowable costs for July 1994 through June 1997. We recommend that DSS: (1) refund
$33,084 for direct costs of program divisions that were incorrectly charged as indirect
costs, and (2) review the departmental indirect cost pool for inappropriate charges on a
periodic basis.

Public Inquiry and Response Unit

The Public Inquiry and Response Unit, a component within the Administration Division, is
responsible for welfare-related inquiries, complaints, and appeals. We found that this unit
incorrectly charged $32,757 of supplies and equipment to the departmental indirect cost
pool during the period of July 1996 through April 1998. These items were used for the
normal operations of the Public Inquiry and Response Unit and should have been charged
directly to the unit’s overhead account for allocation to its benefiting functions. Use of the
departmental indirect cost pool resulted in unallowable charges to SSA programs.

DSS accounting officials agreed that the supplies and equipment used for the normal
operations of a support component should be charged to the component’s overhead
account in accordance with the approved cost allocation plan. Through the departmental
indirect cost pool, SSA was improperly charged for $13,469 of the supplies and equipment
costs for the Public Inquiry and Response Unit for July 1996 through April 1998. We
recommend that DSS: (1) refund $13,469 for indirect costs related to the Public Inquiry
and Response Unit, and (2) review the departmental indirect cost pool for inappropriate
charges on a periodic basis.

Other Support Components

During our review of the departmental indirect cost pool, we identified a number of
weaknesses in the time reporting by support components within the Information Systems
Division. Specifically, we found:




                                               9
•	 The Information System Branch and Information Technology Planning Bureau did not
   have adequate supporting documentation for its time charges to the departmental
   indirect cost pool. Therefore, we were unable to determine if the costs charged to the
   departmental indirect cost pool were reasonable.

•	 Employees were not included in the correct organizational reporting unit for time
   reporting purposes. These errors resulted in incorrect charges to the accounting
   records.

•	 The Information Technology Planning Bureau charged costs to the departmental
   indirect cost pool based on estimated rather than actual time charges. Employees
   relied on estimates because the use of time reports had been discontinued within the
   bureau.

DSS officials concurred with our finding and stated that corrective action had been
initiated. We recommend that DSS implement proper time reporting procedures so that
costs are equitably distributed to the benefiting programs.

PERSONNEL AND OTHER COSTS

For the period October 1996 through April 1998, we found that DSS claimed unallowable
personnel and other costs totaling $208,455 for activities that did not benefit SSA’s
programs. Details are provided below.

Information Technology Projects Bureau

DSS charged ineligible building lease costs related to space that did not house employees
dedicated to SSA programs. The building 4 is occupied by the Information Technology
Projects Bureau, a component within the Information Systems Division. This bureau
includes the MIDAS Project Section, which performs activities that primarily benefit SSA
programs. In September 1996, the MIDAS Project Section relocated to another building;
however, DSS did not revise its method for allocating the costs to the benefiting programs.
As a result, SSA reimbursed DSS for $196,413 in unallowable costs for the period
October 1996 through April 1998.

After the MIDAS Project Section moved to another location in September 1996, the lease
costs for the new building were charged directly to SSA programs. However, DSS
continued to charge the lease costs for the old building to the bureau’s overhead account.
These costs were allocated to programs based on employee time reports. Although lease
costs should be charged in this manner, it is inappropriate to do so when the employees
who benefited SSA programs are not located in the building. For October 1996 through
April 1998, DSS charged a total of $314,227 in building lease costs (including security and
improvements) for the Information Technology Projects Bureau, of which $196,413 were

   4
       Located at 1700 9th Street in Sacramento, California.


                                                       10
allocated to SSA programs. We recommend that DSS: (1) refund $196,413 for ineligible
building lease costs, and (2) direct the Information Technology Projects Bureau to properly
charge costs to the benefiting programs.

Disability and Adult Programs Division

DSS charged ineligible personnel and other costs that benefited non-SSA programs due
to organizational changes within the Disability and Adult Programs Division. In February
1997, the Adult Services Division was eliminated and merged into the Disability Evaluation
Division. This division was renamed the Disability and Adult Programs Division. Although
the activities of the former Disability Evaluation Division primarily benefited SSA
programs, the activities of the former Adult Services Division did not.

We found that DSS did not account for the organizational changes and make all of the
necessary adjustments to its accounting system until August 1997. As a result, SSA
reimbursed DSS for $12,042 in unallowable costs for the period of February through July
1997. These costs were improperly allocated to SSA programs by the Office of the Deputy
Director, Disability and Adult Programs Division. We recommend that DSS refund
$12,042 for ineligible personnel and other costs related to the Disability and Adult
Programs Division.

Other Support Components

During our review of personnel and other costs, we identified a number of weaknesses in
the time reporting by support components within the Disability and Adult Programs Division
and Information Systems Division. Specifically, we found:

•	 The Systems Operation and Policy Bureau, a component within the Disability and Adult
   Programs Division, performed activities that benefited both State and SSA programs.
   This also applied to most employees within the MIDAS Project Section, a component
   within the Information Systems Division. However, we found that these components
   charged 100 percent of their time to SSA programs.

•	 The Administrative Support/Program Services Bureau is a component within the
   Disability and Adult Programs Division. This bureau charged 95 percent of its time to
   SSA programs and 5 percent to State programs. We were unable to determine if
   these percentages were equitable because the applicable time study was performed
   over 4 years ago.

•	 The Systems Operation and Policy Bureau and Administrative Support/Program
   Services Bureau performed time reporting on a quarterly basis. We determined that
   the percentage of employees’ time devoted to the benefiting programs varied each
   month because of the nature of their support activities. Therefore, these components
   should time report monthly rather than quarterly.



                                            11
DSS officials concurred with our finding and initiated corrective action during the audit. We
recommend that SSA require DSS to implement proper time reporting practices so that
costs are equitably distributed to the benefiting programs.

MEDICAL COSTS

For FYs 1995 and 1996, we found that DSS claimed unallowable medical costs totaling
$192,001 for doctors who were paid twice to review the same medical records and
vendors who received duplicate payments for medical services. Details are provided
below.

Doctors Were Paid Twice to Review Medical Records

DSS claimed excessive medical costs for doctors who were paid twice to review medical

records during FYs 1995 and 1996. We found that CADDS paid doctors a fee of $20 to

review medical records in preparation for consultative examinations to determine the

eligibility of the claimants. In addition, CADDS paid doctors for the full authorized amount

to perform medical services in which the review of records was already included as part of

the fee. This occurred because CADDS employees misinterpreted existing procedures

for the processing of medical claims. As a result, CADDS reimbursed doctors for

$132,520 in medical costs to which they were not entitled.


Disability claims under the DI and SSI programs are processed through MIDAS, which

provides separate transaction codes for a variety of medical services. CADDS

employees are required to enter the proper codes into MIDAS to reflect the medical

services performed by the doctors. Although one code, 99080REW, applies to the “review

of records,” it should be used for missed appointments only. DSS procedures state that “a

maximum fee of $20 may be paid for review of records on no-show appointments. This is

a one-time payment and cannot be made a second time on the same claimant to the same

provider.”5


CADDS employees had paid the $20 fee for no-show appointments in addition to the

applicable fee for medical services, resulting in doctors who were paid twice to review the

same medical records. Using a MIDAS computer printout of medical costs for FYs 1995

and 1996, we identified 6,626 overpayments totaling $132,520 where doctors were paid:

(1) the $20 fee for no-show appointments for reviewing medical records; and (2) the full

authorized amount for performing medical services, including the review of medical

records.

We recommend that DSS refund $132,520 for doctors who were paid twice to review

medical records. We also recommend that DSS clarify its procedures for the

reimbursement of doctors’ fees related to the review of medical records.



   5
       DSS’ Medical Services Manual, Section 701-4.




                                                      12
Vendors Received Duplicate Payments for Medical Services

DSS claimed excessive medical costs for vendors6 who received duplicate payments for
medical services during FYs 1995 and 1996. This occurred, in part, because CADDS did
not establish adequate controls over the processing of transactions for payment of medical
services. In addition, CADDS employees ordered medical records for claimants even
though SSA had already ordered the same information. Using a MIDAS computer printout
of medical costs for FYs 1995 and 1996, we selected a random sample of 100 medical
services billed to SSA during the period. Of this amount, our review disclosed 20 duplicate
payments for medical services. Based on a statistical sampling projection, we determined
that CADDS reimbursed vendors for at least $59,481 in duplicate payments to which they
were not entitled (see Appendix E).7

For 13 of the 20 duplicate payments in our sample, we found that CADDS employees
made clerical errors in the processing of transactions for payment of medical services.
These errors went undetected because CADDS placed a low priority on the identification
of duplicate payments through exception reports. MIDAS generates exception reports
which identify potential duplicate payments involving the same vendor, claimant, and
medical services. CADDS distributes the exception reports to its branch offices for review
prior to issuance of payments to vendors. However, there are no procedures in place to
ensure that the exception reports are reviewed and discrepancies are resolved.

For 7 of the 20 duplicate payments in our sample, we found that CADDS employees
ordered medical records for the claimants even though SSA had already ordered such
information. When claimants apply for disability benefits, SSA generally requests that the
claimants provide medical records from the treating physician(s). SSA submits the
claimant’s case folder to CADDS and annotates that the medical records have been
requested. Nevertheless, CADDS employees largely ignored SSA’s prior request and
routinely ordered the medical records to ensure timely receipt of the information.
Therefore, the identical medical records were requested and submitted twice from the
same medical providers, resulting in duplicate payments.

We recommend that DSS refund $59,481 for vendors who received duplicate payments for
medical services. We also recommend that DSS: (1) withhold payments for medical
services to vendors until the branch offices certify that exception reports have been
reviewed and any discrepancies were resolved, and (2) contact medical providers prior to
ordering medical records for claimants to confirm receipt of SSA’s request and avoid a
separate request for the same information.

UNLIQUIDATED OBLIGATIONS
    6
        Vendors include doctors, hospitals, interpreters, and other medical providers.

    7
      The $59,481 represents a conservative estimate of duplicate payments to vendors. We are 90 percent
confident that the amount of duplicate payments is between $59,481 and $115,481. We are also 95 percent
confident that the actual amount is at least $59,481.


                                                        13
Unliquidated obligations are cost commitments for goods or services that have not been
paid. We found that CADDS overstated the amount of unliquidated obligations needed for
FYs 1995 and 1996 by $5,157,597. This occurred because CADDS: (1) used ineffective
methods and incorrect information to estimate the amount of unliquidated obligations, and
(2) did not review the validity of its reported obligations after the end of the FY. Since DSS
committed more funds than needed to satisfy these obligations, SSA was unable to use
the resources for other needs in the administration of the disability program. We noted that
DSS subsequently deobligated $4,290,107 to reduce its unsupported obligations to
$867,490 as of December 31, 1997. This has been a recurring problem and was reported
in the prior audits for FYs 1987 through 19898 and FYs 1992 through 1993.1

SSA’s procedures state that valid unliquidated obligations should be supported
by documents and records describing the nature of obligations and supporting
amounts recorded. State agencies should also review unliquidated obligations at
least once each month and cancel those which are no longer valid.9 In addition, State
agencies are required to provide narrative reports on the status of unliquidated obligations
with the quarterly Form SSA-4513. These unliquidated obligations consist of medical,
indirect, personnel, and other costs. The following table summarizes the unliquidated
obligations in excess of supporting costs at the end of FYs 1995 and 1996.


          Unliquidated Obligations in Excess of Supporting Costs
         Category                    FY 1995               FY 1996               Both FYs

    Medical Costs                    $1,510,001           $1,202,988             $2,712,989
    Indirect Costs                     $449,019             $823,782             $1,272,801
    Other Costs                        $441,714             $943,344             $1,385,058
    Personnel Costs                     $34,629           ($247,880)             ($213,251)

           TOTAL                     $2,435,363           $2,722,234             $5,157,597



Medical Costs

CADDS used incorrect information to estimate its unliquidated obligations for medical
costs. We found that CADDS employees relied on the “Monthly Medical Encumbrance
Report,” which included all encumbrances for medical costs established during the FY plus
medical appointments scheduled in the next FY. Because this report combined the

   8
     “State of California, Department of Social Services, Disability Evaluation Division, Disability
Determination Program, Administrative Cost Audit for the Fiscal Years Ended September 30, 1987, 1988,
and 1989” (A-09-90-00117), HHS/OIG, dated January 1992.

   9
       POMS, Section DI 39506.812.


                                                  14
medical costs for two different FYs, the amount of unliquidated obligations was overstated
by $1,510,001 for FY 1995 and $1,202,988 for FY 1996. For example, at the end of FY
1995, CADDS estimated its unliquidated obligations for medical costs at $4,996,309.
However, we determined the amount needed was only $3,486,308,10 resulting in excess
unliquidated obligations of $1,510,001.

Indirect Costs

CADDS applied ineffective methods to determine its unliquidated obligations for indirect
costs. Because the State’s accounting system did not provide a record of unliquidated
obligations at the end of the Federal FY, CADDS employees estimated the amount of
obligations based on the total encumbrances for indirect costs plus 17 percent of the
unliquidated obligations for personnel costs. This methodology did not produce accurate
estimates. For example, at the end of FY 1996, CADDS estimated its unliquidated
obligations for indirect costs at $1,220,406. However, we determined the amount needed
was only $396,624,11 resulting in excess unliquidated obligations of $823,782. In the prior
audit, HHS/OIG reported that CADDS had used the same methodology to estimate its
unliquidated obligations for FYs 1992 and 1993.1 The following chart illustrates the
estimated and actual indirect costs for the period covered by the current and prior audit.



                                    Unliquidated Obligations for Indirect Costs

                                   1.4
             Dollars in Millions




                                   1.2
                                   1.0
                                    .8                                       Estimated
                                    .6                                       Actual
                                    .4
                                    .2
                                     0
                                         1992   1993   1995    1996
                                                Fiscal Years



Personnel and Other Costs


   10
      Based on actual expenditures of $3,469,333 from September 30, 1995 to December 31, 1997, plus
open encumbrances of $16,975 (as of November 11, 1997).
   11
      Based on actual expenditures of $328,361 from September 30, 1996 to December 31, 1997, plus
open encumbrances of $68,263.


                                                         15
CADDS used incorrect information to determine its unliquidated obligations for personnel
and other costs. For FYs 1995 and 1996, the amount of unliquidated obligations for other
costs was overstated by $1,385,058 because CADDS employees primarily relied on
historical data to estimate the amount of future obligations. In addition, the amount of
unliquidated obligations for personnel costs was understated by $213,251 due, in part, to
unforeseen expenditures related to the processing of Drug Addict and Alcoholic claims.

Summary

In total, the amount of unliquidated obligations needed for FYs 1995 and 1996 was
overstated by $2,435,363 and $2,722,234, respectively. CADDS was aware that the
unliquidated obligations had been overestimated and, therefore, started to deobligate
these amounts after the end of FYs 1995 and 1996. As of December 31, 1997, we
determined that $867,490 in unliquidated obligations, consisting of $610,209 from
FY 1995 and $257,281 from FY 1996, were not supported. We recommend that DSS
deobligate the remaining $867,490 in unsupported obligations. We also recommend that
DSS: (1) improve the methods used to record unliquidated obligations so that the
recorded obligations more accurately reflect the amounts needed, and (2) ensure that the
unliquidated obligations are reviewed on a monthly basis after the end of the FY.




                                            16
     CONCLUSIONS AND RECOMMENDATIONS


We concluded that DSS had overstated its disbursements by $3,981,129 for the period of

July 1994 through April 1998. We also concluded that CADDS had overstated

its unliquidated obligations by $5,157,597 for FYs 1995 and 1996, of which

$867,490 remained outstanding as of December 31, 1997. This occurred, in part,

due to: (1) incorrect time charges for allocating indirect costs, (2) ineffective methods for

estimating unliquidated obligations, and (3) inadequate controls for reimbursing medical

costs. As a result, DSS overreported its total obligations to SSA by

$9,138,726 for the period under audit.


We recommend that SSA require DSS to:


INDIRECT COSTS

1. 	   Refund $3,321,401 for indirect costs that did not benefit SSA programs but were
       charged to the departmental indirect cost pool by the Administration Division,
       Information Systems Division, and Director’s Office.

2.     Refund $212,719 for indirect costs related to the Office of Community Relations.

3. 	   Refund $33,084 for direct costs of program divisions that were incorrectly charged as
       indirect costs.

4.     Refund $13,469 for indirect costs related to the Public Inquiry and Response Unit.

5. 	   Determine the propriety of indirect costs charged to the departmental indirect cost
       pool by other DSS components and refund any unallowable costs to SSA.

6. 	   Direct the PC Support Unit and Welfare Program Reform to properly charge costs to
       the benefiting programs rather than to the departmental indirect cost pool.

7.     Provide training to all DSS personnel in time reporting policies and procedures.

8. 	   Review the departmental indirect cost pool for inappropriate charges on a periodic
       basis.




                                              17
PERSONNEL AND OTHER COSTS

9. 	   Refund $196,413 for ineligible building lease costs for the Information Technology
       Projects Bureau.

10. 	 Refund $12,042 for ineligible personnel and other costs related to the Disability and
      Adult Programs Division.

11. 	 Direct the Information Technology Projects Bureau to properly charge costs to the
      benefiting programs.

12. 	 Implement proper time reporting practices so that costs are equitably distributed to
      the benefiting programs.

MEDICAL COSTS

13. Refund $132,520 for doctors who were paid twice to review medical records.

14. Refund $59,481 for vendors who received duplicate payments for medical services.

15. 	 Clarify procedures for the reimbursement of doctors’ fees related to the review of
      medical records.

16. 	 Withhold payments for medical services to vendors until the branch offices certify that
      exception reports have been reviewed and any discrepancies were resolved. Also,
      contact medical providers prior to ordering medical records for claimants to confirm
      receipt of SSA’s request and avoid a separate request for the same information.

UNLIQUIDATED OBLIGATIONS

17. 	 Deobligate $867,490 in unliquidated obligations that were not supported by valid
      documentation.

18. 	 Improve the methods used to record unliquidated obligations so that the recorded
      obligations more accurately reflect the amounts needed and ensure that the
      unliquidated obligations are reviewed on a monthly basis after the end of the FY.

AGENCY COMMENTS AND OIG RESPONSE

DSS generally concurred with our findings, but stated that it was unable to confirm the
accuracy of reported total overcharges without completing a review of the documentation
supporting those amounts. SSA found the draft report to be valid and reasonable and
supported the recommendations. We are available to discuss the rationale and
methodology used to quantify the effect of our findings with DSS and SSA officials as



                                              18
needed. See below for a detailed discussion of DSS’ comments and our responses for
each of the four findings. The full text of DSS’ comments is shown in Appendix F.




                                         19

INDIRECT COSTS

DSS’ Comments

DSS concurred that costs were incorrectly charged to the departmental indirect cost pool.
However, DSS stated that it was unable to agree with the total overcharges without
completing a review of the documentation supporting those amounts. Prospectively, DSS
stated that it is taking three actions to prevent future occurrences of similar problems.
First, it has issued new time reporting instructions, effective July 1997. Second, it is
establishing a training program to ensure that time reporting is properly completed. Third,
it will develop additional monitoring tools to evaluate the use of the departmental indirect
cost pool.

OIG Response

We provided a “Discussion Draft Report” to DSS on July 27, 1998. In addition, we
discussed our findings with DSS officials during the course of our audit and at the exit
conference on August 12, 1998. Nonetheless, we are available to provide the supporting
documentation and discuss the rationale and methodology used to arrive at these amounts
with DSS officials as needed.

PERSONNEL AND OTHER COSTS

DSS’ Comments

DSS concurred with our recommendations and agreed to take corrective actions. Again, it
did not concur with the amount of total overcharges without completing a review of the
documentation supporting those amounts.

OIG Response

We are available to provide the supporting documentation and discuss the method used to
quantify the effect of this finding with DSS officials.




                                             20
MEDICAL COSTS

DSS’ Comments

DSS partially concurred with our recommendations to refund $132,520 and $59,481 in
medical costs. Regarding the first recommendation, DSS stated that while both the CFR
and SSA instructions were silent on the issue, it has been a long-standing practice to pay
an additional fee to consultative examiners in connection with requests from the Office of
Hearings and Appeals (OHA). DSS contends that the extra fees for OHA requests are a
legitimate business expense because OHA appeal cases involve significantly more
medical evidence for review than initial determinations or reconsiderations. Based on its
own sample review, DSS asserts that 87.3 percent of the cases were OHA appeals and,
therefore, only $16,828 of the $132,520 should be refunded to SSA.

Concerning the second recommendation, DSS asserts that only $38,663 of the $59,481 of
duplicate payments should be refunded. This is the amount that corresponds to duplicate
payments not involving requests from both SSA and DSS. DSS believes it should not
refund duplicate payments resulting from requests from both SSA and DSS because of the
difficulties encountered in coordinating the ordering of medical records.

DSS concurred with the third recommendation to clarify its procedures for the
reimbursement of doctors’ fees related to the review of medical records. It partially
concurred with the fourth recommendation related to the processing of exception reports
for ordered medical records. DSS agreed with the need to: (1) review its practices for
handling exception reports, and (2) contact medical sources when it appears that a request
for medical records is already pending. However, DSS disagreed with our proposal to
withhold payments for medical services until its branch offices certify that the questioned
transactions on the exception reports were resolved. DSS stated that this could create
payment disruption to hundreds of vendors whose records are not in question, yet appear
on the same tape.

OIG Response

We found no guidance regarding the practice of paying additional fees to medical
examiners for reviewing records for OHA cases. In addition, DSS provided no
documentation indicating that SSA approved or was aware of the additional fees.
Therefore, we found no basis for SSA to reimburse DSS for fees paid in excess of
amounts allowed under current guidelines.

Our position regarding duplicate payments for medical records is that DSS should not pay
for the same medical evidence more than once. As noted in the report, SSA offices
annotated case folders when the medical records were ordered and it was CADDS’
responsibility not to reorder those records. Therefore, DSS should refund the $59,481 in
duplicate payments made to vendors.



                                            21
Regarding our proposal to withhold payments for questionable reimbursements that
appear on exception reports, our intent was only to withhold payments for the questionable
transactions. We agree that payments to other vendors should not be delayed.

UNLIQUIDATED OBLIGATIONS

DSS’ Comments

DSS concurred with these recommendations. DSS stated that it has already implemented
some improved reporting mechanisms to allow it to more accurately record unliquidated
obligations. DSS added that it has significantly reduced the amount of outstanding
obligations and believes it has largely resolved the problems that led to this finding.




                                            22
                        OTHER MATTERS


ACCESS CONTROLS OVER MIDAS COMPUTER SYSTEM

DSS needs to improve access controls over MIDAS to prevent misuse through
unauthorized transactions. MIDAS is the computer system for processing disability claims
under the DI and SSI programs in the State of California. Separation of duties is
maintained through the use of different user classifications and group profiles. The user
classifications and group profiles are assigned to individuals to restrict their access to
specific operations within MIDAS.

During our review, we identified weaknesses in existing controls over employee access to
MIDAS. Although DSS officials agreed to implement a compensating control, we believe
that additional controls are necessary to reduce the risk of unauthorized loss or
modification of data. Due to the sensitive and confidential nature of this matter, we will
report our findings and recommendations to improve access controls over MIDAS in a
separate management letter.




                                            23
APPENDICES

                                                             APPENDIX A



                 ACRONYMS


CADDS   California Disability Determination Services


CFR     Code of Federal Regulations


CMIA    Cash Management Improvement Act


DI      Disability Insurance


DSS     California State Department of Social Services


FY      Fiscal Year


HHS     U.S. Department of Health and Human Services


MER     Medical Evidence of Record


MIDAS   Modernized Interim Disability Adjudication System


OHA     Office of Hearings and Appeals


OIG     Office of the Inspector General


OMB     Office of Management and Budget


POMS    Program Operations Manual System


SSA     Social Security Administration


SSI     Supplemental Security Income





                                A-1
                                                                                     APPENDIX B



  SUMMARY OF MONETARY RESULTS



                                FINDING                                             AMOUNT
 The Administration Division, Information Systems Division, and
 Director’s Office charged the costs of activities that did not benefit
 the Social Security Administration (SSA) programs to the
 departmental indirect cost pool for October 1994 through
 April 1998.                                                                           $3,321,401
 The Office of Community Relations charged indirect costs that
 benefited non-SSA programs to the departmental indirect cost pool
 for July 1996 through March 1998.                                                       $212,719
 Program divisions incorrectly charged direct costs to the
 departmental indirect cost pool for July 1994 through June 1997.                         $33,084
 The Public Inquiry and Response Unit charged supplies
 and equipment to the departmental indirect cost pool for
 July 1996 through April 1998.                                                            $13,469
 The California State Department of Social Services (DSS) charged
 ineligible building lease costs for the Information Technology
 Projects Bureau for October 1996 through April 1998.
                                                                                         $196,413
 DSS charged ineligible personnel and other costs for the Disability
 and Adult Programs Division for the period of
 February through July 1997.                                                              $12,042
 DSS claimed excessive medical costs for doctors who were paid
 twice to review medical records during Fiscal Years (FY) 1995 and
 1996.                                                                                   $132,520
 DSS claimed excessive medical costs for vendors who received
 duplicate payments for medical services during FYs 1995 and
 1996.                                                                                    $59,481
 DSS overstated the amount of unliquidated obligations needed for
 FYs 1995 and 1996. 1                                                                  $5,157,597

                                  TOTAL                                                $9,138,726



   1
      After the end of FYs 1995 and 1996, DSS deobligated $4,290,107 to reduce its unsupported
obligations to $867,490 as of December 31, 1997. Therefore, we recommend that DSS deobligate the
remaining $867,490 in unsupported obligations.


                                                 B-1
                                                                                                                                       APPENDIX C


        THE CALIFORNIA STATE DEPARTMENT OF SOCIAL SERVICES

       REPORTED VS. ALLOWED OBLIGATIONS FOR FISCAL YEAR 1995



                         DISBURSEMENTS                          UNLIQUIDATED OBLIGATIONS                          TOTAL OBLIGATIONS
                                    AUDIT                                        AUDIT                                         AUDIT
   COSTS          REPORTED1      ADJUSTMENTS     ALLOWABLE      REPORTED1     ADJUSTMENTS      ALLOWABLE     REPORTED1      ADJUSTMENTS      ALLOWABLE


PERSONNEL          $81,837,873             $0     $81,837,873           $0               $0            $0     $81,837,873              $0     $81,837,873
MEDICAL             29,663,748        (96,000)     29,567,748       627,184        (610,209)        16,975     30,290,932       (706,209)      29,584,723
INDIRECT            14,031,579       (871,597)     13,159,982         4,074               0          4,074     14,035,653       (871,597)      13,164,056
OTHER               19,011,904              0      19,011,904         1,650               0          1,650     19,013,554               0      19,013,554
TOTAL             $144,545,104      ($967,597)   $143,577,507      $632,908       ($610,209)       $22,699   $145,178,012     ($1,577,806)   $143,600,206




   1
       Per “State Agency Report of Obligations for SSA Disability Programs” (Form SSA-4513) as of December 31, 1997.


                                                                            C-1
                                                                                                                                        APPENDIX D


        THE CALIFORNIA STATE DEPARTMENT OF SOCIAL SERVICES

       REPORTED VS. ALLOWED OBLIGATIONS FOR FISCAL YEAR 1996



                         DISBURSEMENTS                           UNLIQUIDATED OBLIGATIONS                          TOTAL OBLIGATIONS
                                    AUDIT                                         AUDIT                                         AUDIT
   COSTS          REPORTED1      ADJUSTMENTS      ALLOWABLE      REPORTED1     ADJUSTMENTS      ALLOWABLE     REPORTED1      ADJUSTMENTS      ALLOWABLE


PERSONNEL          $83,268,488              $0     $83,268,488           $0               $0            $0     $83,268,488              $0     $83,268,488
MEDICAL             35,962,733         (96,000)     35,866,733       282,398        (257,281)        25,117     36,245,131       (353,281)      35,891,850
INDIRECT            16,123,803      (1,011,741)     15,112,062        68,263               0         68,263     16,192,066      (1,011,741)     15,180,325
OTHER               14,660,704               0      14,660,704       282,139               0        282,139     14,942,843               0      14,942,843
TOTAL             $150,015,728     ($1,107,741)   $148,907,987      $632,800       ($257,281)      $375,519   $150,648,528     ($1,365,022)   $149,283,506




   1
       Per “State Agency Report of Obligations for SSA Disability Programs” (Form SSA-4513) as of December 31, 1997.


                                                                             D-1
                                                                               APPENDIX E


 SAMPLING METHODOLOGY FOR DUPLICATE PAYMENTS



We obtained a listing from the Modernized Interim Disability Adjudication System

identifying vendors (i.e., doctors, hospitals, interpreters and other medical providers) that

appeared to have been paid more than once for the same medical service during Fiscal

Years 1995 and 1996. Using a stratified sample design, we randomly sampled 100 of the

13,517 medical services purchased from the identified vendors. The

100 sampled items were selected from the following three strata: 30 medical evidence of

records (MER), 30 interpreters, and 40 other medical costs. The following tables provide

the details of our sampling results and statistical projection.


                            Table 1 - Population Description

       Stratum                      Population Count              Population Dollars
MER                                    7,588                        $133,933.33
Interpreters                           3,376                         $89,377.48
Other Medical Costs                    2,553                         $94,449.38
          Total                       13,517                        $317,760.19

                                 Table 2 - Sample Results

       Stratum              Sample Size            Error Count           Error Dollars
MER                             30                     14                  $239.47
Interpreters                    30                       0                    $0.00
Other Medical Costs             40                       6                 $421.64
      Total                    100                     20                  $661.11

                   Table 3 - Statistical Projection of Sample Results

            Confidence Level                                   90 Percent
Point Estimate                                                   $87,481
Lower Limit                                                      $59,481
Upper Limit                                                     $115,481
Precision Amount                                                 $28,000
Precision Percent                                              32 Percent




                                             E-1
                        APPENDIX F



STATE OF CALIFORNIA COMMENTS

                                                                               APPENDIX G



     MAJOR REPORT CONTRIBUTORS



Office of the Inspector General


William Fernandez, Director, Program Audits (West)

Jack H. Trudel, Deputy Director

James A. Sippel, Senior Auditor

Jimmie R. Harris, Senior Auditor

M. Leigh Banuelos, Auditor



For additional copies of this report, please contact the Office of the Inspector General’s

Public Affairs Specialist at (410) 966-9135. Refer to Common Identification Number

A-09-97-51006.





                                             G-1

                      APPENDIX H



SSA ORGANIZATIONAL CHART

